March 30, 2020
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Airbus Helicopters, Inc. v. Riggs, et al., No. 19-1158

Dear Clerk of Court:
Pursuant to Supreme Court Rule 30.4, counsel for Respondents Mary Riggs,
as Personal Representative of the Estate of Jonathan Neil Udall, and Philip and
Marlene Udall, in the matter designated above, hereby requests that the time within
which to respond to the petition for certiorari be extended 30 days, to and including
May 22, 2020. Consent was requested of counsel for the Petitioner Airbus Helicopters,
Inc., who consented to this request for a 30-day extension. The petition for certiorari
in the above-entitled case was docketed on March 20, 2020, after Justice Kagan
granted Petitioner an extension from February 19, 2020 to March 20, 2020. Absent
an extension, the Brief in Opposition would be due April 22, 2020.
This request will not prejudice Petitioner’s interests and is made necessary for
following reasons:
1) The time to draft the brief in opposition coincides with a number of other judicial
proceedings and briefs for which Counsel of Record is responsible for, including a
supplemental brief in In re: Volkswagen "Clean Diesel" Marketing, Sales Practices,
and Products Liability Litigation, Case No. 3:15-md-02672-CRB, due today in the
U.S. District Court for the Northern District of California; an amicus curiae brief in
Ford Motor Co. v. Montana Eighth Jud. Dist. Ct./Ford Motor Co. v. Bandemer, Nos.
19-368 & 19-369, due April 7, 2020 in this Court; an opening brief in Pedante v. Ford
Motor Co., No. 19-56530, due April 9, 2020 in the U.S. Court of Appeals for the Ninth
Circuit; and a motion to dismiss several affirmative defenses in J.S. v. Winchester
Pediatric Clinic, P.C., Case No. 5:19-cv-00097-MFU, due April 24, 2020 in the U.S.
District Court for the Western District of Virginia.

455 Massachusetts Avenue, N.W., -- Suite 152 – Washington, DC 20001
Tel (202) 944-2874 – robert.peck@cclfirm.com

Clerk of the Court
March 30, 2020
Re: Airbus Helicopters, Inc. v. Riggs, et al., No. 19-1158
Page Two
2) A 30-day extension will not prejudice Petitioner’s interests. Petitioner does not
object to Respondents’ request for this extension. Thirty days is appropriate for this
matter.
For the foregoing reasons, Respondents respectfully request a 30-day extension
in which to file a brief in opposition.
Sincerely,

Robert S. Peck
Counsel of Record
CENTER FOR CONSTITUTIONAL
LITIGATION, PC
Gary C. Robb
Anita Porte Robb
ROBB & ROBB LLC
One Kansas City Place
1200 Main Street, Suite 3900
Kansas City, Missouri 64105
Telephone: (816) 474-8080
Counsel for Respondents
cc:

Carter G. Phillips, Counsel for Petitioner

